<html>
<title> - OPEN HEARING WITH HON. ROBERT CARDILLO, DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 114-618]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-618

                OPEN HEARING WITH HON. ROBERT CARDILLO,
           DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      TUESDAY, SEPTEMBER 27, 2016

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      

         Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-966 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a> 
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
              DIANNE FEINSTEIN, California, Vice Chairman

JAMES E. RISCH, Idaho                RON WYDEN, Oregon
DANIEL COATS, Indiana                BARBARA A. MIKULSKI, Maryland
MARCO RUBIO, Florida                 MARK WARNER, Virginia
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             MAZIE K. HIRONO, Hawaii
TOM COTTON, Arkansas
                 MITCH McCONNELL, Kentucky, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                  Desiree Thompson Sayle, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                           SEPTEMBER 27, 2016

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Feinstein, Hon. Dianne, Vice Chairman, a U.S. Senator from 
  California.....................................................     2

                                WITNESS

Hon. Robert Cardillo, Director, Central Intelligence Agency......     3
    Prepared statement...........................................     6

 
                     OPEN HEARING WITH HON. ROBERT CARDILLO, 
                     DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE 
                                AGENCY

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chair of the Committee) presiding.
    Committee Members Present: Senators Burr, Feinstein, Coats, 
Rubio, Collins, Blunt, Lankford, Wyden, Warner, Heinrich, and 
King.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order. I'd 
like to welcome our witness today, Mr. Robert Cardillo, the 
Director of the National Geospatial-Intelligence Agency, or 
NGA. Robert, we on this committee hear from your organization 
frequently. We read your products daily. We value the insights 
and assessments that NGA brings to the table.
    As you well know, we typically hold our hearings in a 
closed setting so that we can discuss freely classified 
programs. Today, however, I want to offer this open hearing as 
an opportunity to let the American people know more about the 
NGA, the mission your workforce is tasked with and the unique 
value your organization brings to bear.
    The NGA arguably has the broadest customer set of any 
organization within the intelligence community. It includes the 
warfighter, the policymaker, all-source intelligence agencies, 
foreign allies, the Federal Aviation Administration, the 
Federal Emergency Management Agency, state and local first 
responders, and others. The NGA's products range from highly 
classified intelligence assessments to unclassified maps. The 
NGA supports the warfighter and policymaker on a daily basis.
    Less well known, though, are your other missions. NGA has 
supported disaster relief operations such as the response to 
hurricanes here at home, earthquakes in Haiti and Japan, forest 
fires in the western U.S. You support special events like the 
Superbowl, presidential inaugurations, as well as provide 
advanced data for global positioning systems, a capability that 
touches every American's life.
    As we've discussed previously and you reference in your 
statement for the record, the explosion in publicly available 
information and commercial imagery systems means the 
intelligence community no longer has a monopoly on access or 
insights.
    You had previously stated your intent to leverage these new 
realities by encouraging NGA to operate more in the open. I'd 
welcome your assessment today of how that's progressing.
    Robert, you're designated as the functional manager of the 
Nation's geospatial-intelligence enterprise, an important 
function. I hope during your testimony you can discuss progress 
you've made in exercising your authorities to better coordinate 
the collection, analysis, and dissemination of GEOINT across 
the entire intelligence community.
    I'd like to remind members that we're in an open hearing. 
While the Director may be able to describe how GEOINT is 
applied to a number of intelligence topics and perhaps provide 
his agency's assessment on certain topics, he may not be able 
to get into detail on some issues. If you're uncertain about 
the classification of your question, I would advise you to talk 
to staff.
    I'd like to note that the NGA will be celebrating its 20th 
birthday--that would be wonderful for us, wouldn't it?
    Vice Chairman Feinstein. Yes, it would.
    Chairman Burr. On October 1st, 1996, the NGA predecessor, 
the National Imagery and Mapping Agency, was established by the 
Fiscal Year 1997 National Defense Authorization Act. The world 
certainly has changed dramatically in those 20 years, but I 
believe your organization, your capabilities, and your 
tradecraft have evolved along with it.
    Thank you again for appearing today. I look forward to your 
testimony. We thank NGA employees for the crucial mission they 
carry out every day, and I turn to the Vice Chairman for any 
comments she might have.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, VICE CHAIRMAN, A 
                  U.S. SENATOR FROM CALIFORNIA

    Vice Chairman Feinstein. Thanks very much, Mr. Chairman.
    Director Cardillo, thank you for joining us this morning, 
and happy 20th anniversary next month.
    I want to recommend your very thorough statement for the 
record to all members and to the public as well. You begin by 
stating the motto of your agency, and that is ``Know the Earth, 
show the way, and understand the world,'' individually and 
collectively. The written statement is fascinating and I think 
everybody would gain by reading it.
    NGA's core mission is to provide geospatial-intelligence--
now, that is images, maps, analysis, and similar data--in 
support of national security missions. NGA's customers, which 
includes the Intelligence Committee, warfighters, policymakers, 
and others, then use these products for a multitude of 
purposes.
    For example, showing changes in North Korea's missile 
program by taking many images of key installations over time; 
providing that imagery that can help map ISIL's defenses around 
the cities in Syria; and monitor activities to ensure Iran is 
not engaging in prohibited activity at its nuclear sites. Those 
are three good examples.
    NGA has also become an important supplier of products that 
support a host of other government activities, like, believe it 
or not, fighting forest fires or responding to flooding. 
Imagery has become a core requirement of many missions.
    The government has not been alone in increasing its use of 
imagery, and demand in the private sector has increased 
substantially. This increased demand has led to the creation of 
companies, like Terra Bella and Planet, both from California, 
my state, which launch their own satellites and provide imagery 
and related services for a fee.
    Some of these companies may soon be able to take an image 
of every spot on the Earth every day. That's an unprecedented 
amount of information. Taking advantage of the data that can be 
provided by these commercial suppliers is a key challenge for 
the U.S. Government and for the NGA going forward.
    So I commend you, Director, for understanding the magnitude 
of this challenge and your willingness to pursue new sources of 
intelligence collection. In the future we'll all have to work 
together to best position your department and the entire United 
States Government to use as much commercial imagery as 
possible, while ensuring that we continue to maintain and 
improve the traditional--excuse me--the truly exceptional 
capabilities offered by our government's satellites.
    I'm also interested in the new NGA office you have opened 
in Silicon Valley. The NGA is not the only part of the IC or 
the United States Government to realize the potential of having 
an office positioned to work more directly with the tech sector 
in California. I'd like to understand more about what this 
office will do and how it will interact with other efforts, 
like In-Q-Tel.
    Finally, I'd appreciate an update on the construction of 
your new facility in St. Louis. Now that the decision has been 
made regarding that location, we would all appreciate an update 
on cost and schedule and if they're all within budget and time.
    Thanks, again, Mr. Chairman, and thank you, Director, for 
being here.
    Chairman Burr. Thank you, Vice Chairman.
    At this time I would inform members I think what they 
already know, is that we will recognize individuals in order of 
seniority for a five-minute round, and we'll loop back as we 
need to.
    With that, Robert, the floor is yours.

     STATEMENT OF HON. ROBERT CARDILLO, DIRECTOR, NATIONAL 
                 GEOSPATIAL-INTELLIGENCE AGENCY

    Director Cardillo. Thank you very much, Chairman Burr, Vice 
Chairman Feinstein, and all the distinguished members of the 
committee. On behalf of the women and men of the National 
Geospatial-Intelligence Agency and the National System for 
Geospatial-Intelligence, it's my honor to be here to represent 
them before you here today.
    As the Vice Chairman noted, NGA's motto is ``Know the Earth 
and show the way and understand the world.'' That motto uses 
both new and exciting opportunities to deliver geospatial-
intelligence to our customers and our partners in ways that no-
one thought possible. Every day we grow in our ability to know 
the Earth, as we gain access to an ever-broadening pool of 
foundation data that includes commercial and allied, electro-
optical, open sources, and direct user input from the field.
    Now, to be clear, National Technical Means from my mission 
partner at the National Reconnaissance Office provides 
exquisite and peerless capabilities to meet our hardest 
challenges. But for NGA to provide the most value possible to 
our customers, we must be able and open to leverage all 
geospatially enabled content as a component of our daily 
operations.
    Over the past decade, NGA has partnered with the commercial 
imagery industry to dramatically improve delivery of commercial 
GEOINT to all mission partners. Our EnhancedView contract with 
Digital Globe provides a diverse set of phenomenology to 
support 90 percent of our foundation mapping efforts, our 
disaster relief efforts, and our intelligence requirements. Its 
unclassified nature makes commercial imagery a mainstay for 
U.S. and allied customers in virtually every mission worldwide.
    Now, we've also expanded outreach and coordination over the 
last year to the most mature of what we call the ``new space'' 
providers, such as Planet, formerly Planet Labs, Terra Bella, 
BlackSky Global, to assess mission utility and access to 
operational data and services. Over the coming months and 
years, we'll look at more of these new space providers and 
constantly assess the state of the industry to enable us to do 
more than we thought was possible.
    Our mission partner, the NRO, also has a vested interest in 
these companies. Together, we stood up what we call the joint 
``Commercial GEOINT Activity,'' whereby NGA and NRO work more 
closely than ever before to identify, consider, and evaluate 
emerging commercial GEOINT data and services against our 
customers' needs. Through this CGA, we and the NRO will assess 
future investments and capabilities to make development 
decisions, both for commercial and for national, on how we 
match those user needs to the optimal mix of government, 
partner and commercial space capabilities.
    As the functional manager for geospatial intelligence, my 
most important responsibility is to capture and represent the 
user needs to those that depend upon us. As such, I'm uniquely 
positioned to show the GEOINT enterprise how we can and must 
succeed in the future by operating in and with the open. 
Earlier this year, I called on the community to focus attention 
on three priority areas: professionalization, interoperability, 
and unity of effort.
    I've also mandated professionalization by requiring that 
all GEOINT personnel at NGA and the services be certified--this 
includes me. The DOD components have been directed to finish 
this effort by 2019. We've also developed a groundbreaking 
agreement with industry partners to recognize functional 
equivalence between our certification program and theirs.
    To promote interoperability, we're developing standards 
that provide the vocabulary, the grammar, and the interface 
rules to ensure that a product is interpreted as the author 
intended and that the end users interpret the product in the 
same way.
    To demonstrate our unity of effort, I've invested fiscal 
year 2016 funds to support my partners' capabilities. This 
includes U.S. Special Operations Command's efforts on human 
geography in parts of the Middle East and North and Sub-Saharan 
Africa, and the U.S. Department of State's Secondary Cities 
project that generates data on urban food, energy, and water 
nexus in non-primary cities.
    Similar efforts are underway by our Commonwealth allies. In 
the past several months, we've aligned structures, functions 
and resources, identified efficiencies through mission-sharing 
and collaboration, and produced a blueprint to tackle 
scientific and technological challenges and speed the 
transition and adoption of mature and operational capabilities.
    National decisionmakers, military commanders, scientific 
researchers, and first responders all look to our agency to 
help them understand what's happening at any given place and 
time, and anticipate what may happen next, whether that be a 
military operation, a response to a flood or a forest fire, or 
understanding the changes in Alaska and the Arctic.
    To answer this demand signal, NGA must capture the right 
knowledge from the wave of national, commercial, and open 
source data. We've embarked on Activity-Based Intelligence, 
which will use the big data analytics and methodologies to find 
adversarial threats inside the noise and the volume of these 
disparate data streams.
    In short, NGA must go wherever the data exists and apply 
that data wherever the mission demands. We must embrace open 
content with the same fervor as classified content; and in many 
cases we must use open content first, then augment it with 
classified sources to confirm, reject, or increase our 
confidence in analytic judgments. And we must find new ways to 
get the data to the user, whichever system they may be on, from 
the most classified of networks to the world wide web.
    In closing, the agency I'm privileged to lead will 
celebrate its 20th anniversary next week. In 1996, the National 
Imagery and Mapping Agency was established. Congress, with 
exceptionally strong support from this committee, was largely 
responsible for its creation. I sincerely and deeply thank this 
committee and all of Congress for your continued support.
    Now, while we may be the youngest agency in the intel 
community, I can proudly and confidently report that the agency 
and the GEOINT discipline are more relevant than at any point 
in our 20-year history. Our future is rich in opportunities, 
exceptionally bright, and we will build the needed tools to 
harness the opportunities that arise. We're committed to be the 
NGA that the mission demands and our Nation deserves.
    On that note, I ask that my full written statement be 
entered into the record, and I'm pleased to answer any 
questions you may have.
    [The prepared statement of Director Cardillo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Director, thank you for that testimony. Your 
full statement will be a part of the record.
    Let me point out to members: To the best of my research, 
this is the first time that the Director of the NGA has, in 
front of--in an open hearing, been asked to testify about what 
NGA does, why the American people should care, and, more 
importantly, what a vital component of our intelligence 
community this is. So, Director, I thank you for your 
willingness to do it.
    I would also remind members that this is the seventh open 
hearing we have had this Congress. I think we made a commitment 
that we wanted to try to bring a little bit more light to why 
the American people should care about 17 agencies and the work 
that they do in keeping America safe and keeping the American 
people safe and hopefully having an impact around the globe on 
stability.
    I'll recognize myself first.
    Director, in March you sent a letter to the Vice Chairman 
and you stated it was your goal for the NGA to be positioned 
for a clean audit in fiscal year 2016. How are we doing?
    Director Cardillo. We are making progress. I will not make 
the fiscal year 2016 objective. I do know that we will make 
progress on the material weaknesses that have been identified. 
Our new--and I'm quite confident that we can make this goal--is 
fiscal year 2018. It's going to take us two more years to work 
off some of the issues that we have with property 
accountability and our bookkeeping.
    But I will--I'm proud to say the progress is positive. It's 
just more work than we knew we had. But we're confident we will 
make this new target.
    Chairman Burr. I want to thank you, because when Senator 
Blunt was nice enough to invite me out to St. Louis to visit 
NGA, you made sure that your team there was willing to show me 
the good, the bad, and the ugly. And it gave me a unique 
perspective about, unless you've got a physical facility that 
accommodates the work that you do, it makes it difficult to 
impossible to accomplish it as effectively as you can and on 
the time line that you need to.
    So I can understand, because I saw different financial 
pieces scattered around the facility that really should be 
collocated, but can't under the physical constraints that the 
facility provides you. So, as the Vice Chairman highlighted, 
we're anxious to see the new building start, we're anxious for 
its completion, and we have an unbelievably talented workforce 
there that will take advantage of it, and hopefully it will 
address some of these things like the audit.
    Director, the distinction between geospatial-intelligence 
and all-source intelligence may seem to be a mundane topic. 
However, efficient use of intelligence resources is one of the 
key priorities of this committee. We do not want to needly fund 
activities outside of an organization's mandate or duplicate 
efforts of other agencies. Nor, however, do we wish to curtail 
analytic efforts of any organization if there is a unique value 
being provided to the intelligence community and to its 
customers.
    My staff tells me that many of the products from NGA are de 
facto all-source intelligence products, even if they are 
claimed to be substantially based upon geospatial-intelligence. 
Given that, is it time for the Administration and Congress to 
reexamine the roles and responsibilities of the agency, or do 
you feel comfortable that its mandate is stated clearly today?
    Director Cardillo. Chairman, I appreciate the question and 
it, ``it'' being how do we most efficiently apply finite 
resources to the greatest effect, is an issue we deal with 
every day. I think this committee is aware that, while I'm 
currently the Director of NGA, I have been in other positions 
through the IC, so I have had many views on your question.
    As Director of NGA, I commit all of our output to all of 
our customers so that they can use them in the way that best 
serves their mission. That includes my colleagues at the 
Central Intelligence Agency, the Defense Intelligence Agency, 
and State's INR, who are responsible to provide the Nation the 
coherent all-source assessment of threats and opportunities.
    At the same time--so I post everything that we do so that 
it can be used most efficiently by any user. I also do that 
posting so that, should we come up against a duplication that's 
unwarranted, in case we're not making the most efficient use, 
that we can deal with that as well.
    So I think I have plenty of opportunity today to engage 
those customers and to provide them that access. At the same 
time, when and if we do find an inefficiency, I think we also 
have the wherewithal to deal with that.
    Chairman Burr. Last question: Do you have authorities, 
resources, and personnel you need to effectively exercise your 
functional management mandate?
    Director Cardillo. I do. What I owe you is a better flexing 
of the muscles you have given me. I spoke to some of that in my 
statement for the record. I'm happy to speak to more of that, 
but I would ask the committee to compel me, as you have in the 
past, to use what you've given me before I come and ask you for 
additional authority.
    Director Cardillo. Great.
    Vice Chairman.
    Vice Chairman Feinstein. Thank you.
    Director Cardillo, I'd like to confine my questions this 
round to pages 4 and 5 of your written comments. Let's begin 
with the comment having to do with Russia's occupation and 
attempted annexation of Crimea and aggression in Eastern 
Ukraine. You say you have ``aggressively applied myriad sources 
and analytic strategies to track traditional military 
operations, the flow of supplies, irregular forces, and the 
ethnic, economic, and geographic backdrop to document the flow 
of the conflict.''
    Tell the public exactly what this means and what GEOINT has 
found?
    Director Cardillo. Thank you. We have been able to expose, 
identify, and document the geospatial component of the Russian 
aggression in and around Ukraine. Some of that we've done 
through our more traditional capabilities: the establishment of 
new permanent bases on the proximate border with Ukraine. These 
are the movement of Russian forces that used to be there in a 
temporary status and now they're moving to a permanent status. 
What that obviously does is it gives Russia more opportunity to 
effect a next step in a very short period of time.
    Vice Chairman Feinstein. You're speaking of Ukraine now?
    Director Cardillo. I'm speaking on the border of the 
Ukraine, in the Russian border of Ukraine.
    To answer the other part of your question, about the non-
traditional aspect of the Russian aggression, it's more 
difficult for us to use those traditional sources, because by 
their very nature they're more subtle indicators, they're less 
identifiable. That's a case in which you need me to use the 
other part of the spectrum that I speak of, the non-traditional 
sources. This is everything from social media to open source to 
press reporting to identifications that we get from allied 
partners.
    Vice Chairman Feinstein. Let me just say where I'm going 
with this, because there is a certain denial by Russia that 
they do have forces in Ukraine and in Crimea. How would you 
answer that from the position of your technology?
    Director Cardillo. It's really two questions, if you don't 
mind me breaking it up.
    Vice Chairman Feinstein. No.
    Director Cardillo. Crimea is different because Russia is in 
fact in Crimea. Obviously, it's against the policy interests of 
this country, the way they've staked their claim. But their 
military is quite active and quite present in Crimea and it's 
very visible. There's no hiding it there.
    In Eastern Ukraine it's quite different. As you said, their 
narrative is that this is a local uprising, that this is 
indigenously produced and that they have no involvement. In an 
open session, what I'd like to just be able to assure you and 
American people, that we are applying non-traditional 
capabilities to expose that to you and to our customers. I'd 
rather not go into detail here because if I explain that to you 
then I'd be explaining it to the Russians themselves.
    Vice Chairman Feinstein. And what have you found with 
respect to Tehran's compliance with its initial nuclear 
obligations?
    Director Cardillo. We're pleased to be part of the IC's 
effort to monitor Iranian compliance. We have supported the 
DNI's team leadership here, and we have to date received the 
accesses that we expected and we've received the cooperation 
that was assured. But I will finish by saying that this is a 
day-to-day campaign that we're on and so we remain vigilant to 
monitoring that adherence.
    Vice Chairman Feinstein. You mentioned the South China Sea, 
with the Chinese building war-like development on the atolls. 
What does NGA tell us about that?
    Director Cardillo. One of the key questions we have is 
what's their intent with the development of these new land 
features in the South China Sea? Part of the Chinese narrative 
has been that they're commercial, even tourist-related, etc. We 
have identified indications that there is more to that story, 
and the more that we've identified are military-related 
structures and equipment that at least give the Chinese the 
option to permanently post military forces in and on these 
islands.
    So our job, obviously, is to warn about that possibility 
and of course identify it when we see it.
    Vice Chairman Feinstein. One final one, and that's my great 
interest, the big wildfires burning in California. What 
information do you provide with respect to those?
    Director Cardillo. First of all, I just need to remind, 
since I'm speaking to the American people as well: The only way 
I'm authorized to apply my resources domestically is if I have 
a lead Federal agency request those services. This is nothing 
that we do as an intelligence community.
    But in this case, with the forest fires, we do have 
requests from the National Foreign Service and the local and 
state fire-fighting services. In that case we're able, because 
we have that request, to provide them, one, with a better 
understanding of where the--not just where the fire is, but how 
it's progressing, where are the hottest spots in that fire, so 
that if you're seeking to contain it from jumping to an even 
greater disaster how you would combat that.
    So we apply both optical capability on the expanse of it, 
but we also have the capability to sense temperature and heat, 
and that way it can steer and guide the fire-fighters to employ 
their resources in the most effective way.
    Vice Chairman Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Robert, thank you for coming before us. I always get a 
little nervous on these public hearings because I'm afraid that 
I thought I read something in The New York Times and therefore 
it's been published and I can ask the question, then I can't 
remember whether I read that in The Times or I heard it in a 
classified setting. So if I breach anything here with a 
question, feel free to just say: Let's talk about that in a 
classified area, if you would.
    Director Cardillo. I understand.
    Senator Coats. Two areas that I'd like to just pursue here. 
The recent article that came out on the Nextgov.com web site 
was published, so it is public, was titled ``Spy Agency to 
Pilot Insider Threat Hunting Technology.'' It noted that ``The 
NGA is investing in sentiment analysis technology intended to 
help identify insider threats.''
    This is an ongoing issue. Obviously, we've seen the public 
exposure of classified material coming from inside various 
agencies. Can you give us a little bit of non-classified 
information as to how this works and how it will be shared with 
other agencies, and what your participation is within the 17 
communities of the intelligence services?
    Director Cardillo. Absolutely, Senator. The committee 
should be confident that I take the counter-intelligence 
mission of mine as seriously as I take the intelligence 
mission, because if I can't protect the service that I provide 
today I won't be able to do it tomorrow.
    So you're asking about a real threat, the insider threat, 
and we can talk about external threats as well. But in this 
case, how do I ensure that my team is staying on my team? The 
pilot that you describe is one that we're doing in cooperation 
with the intelligence community, we're doing it in cooperation 
with the Director of National Intelligence and his Counter-
Intelligence Center. What it seeks to do is to understand, 
through access to internal and, as necessary, external 
communications, to identify indicators where it might be worth 
taking another look.
    Just so you know, every time I log on to my computer at 
work the first screen I see is a declaration: ``This is a 
government computer. You are authorizing access to it.'' So 
we're very careful about provision of privacy, etc., but as a 
Federal employee and as a member of the intelligence community, 
when I do my log-in I also know that I'm logging in to provide 
access to others who may seek to protect our capabilities.
    So, as you said, it's a pilot. We will share lessons 
learned as we go through the project with the committee as well 
as with our colleagues in the IC.
    Senator Coats. Thank you. That's a very relevant answer to 
some of the issues that are being discussed on a more national 
basis. I won't get into that.
    Secondly, I noticed here that there's been an effort to 
work with our foreign partners for more information-sharing. I 
think there was recently an agreement with the German 
government relative to that. Two questions here: one, is there 
financial contribution among our allies in terms of this joint 
project; and could you describe a little bit of what you gained 
from this agreement with the German government?
    Director Cardillo. Indeed. The German government made the 
decision to invest in satellite technology. It's called 
synthetic aperture radar, so think radar signals from space. 
They flew these satellites in tandem. So as they flew together 
they would send signals down to the Earth and get elevation 
data, depending on the amount of time it took for the signal to 
come back.
    But they did it at such resolution that we had never mapped 
the elevation of the Earth at that level before. As a matter of 
fact, Director Clapper again gets credit. He effected the 
agreement with the Germans to provide that data for common use. 
So now there's a consortium of nations that are getting 
together to process the data.
    Think of elevation maps. We're now preparing elevation maps 
around the planet in a way that we've never had before. The 
last time we had measured the planet this way was with a 
Shuttle mission back in the late 1990s. So who will this 
advantage? It will advantage anybody who needs to move an 
aircraft from one place to another, anybody that needs to 
understand the science and the evolution of the planet, anybody 
who needs to understand the safety and security of a mission.
    We're in the early stages of processing that data now, and 
we'll begin to roll out those outcomes, those maps, in the next 
few months and years.
    Senator Coats. The question about the contributions of 
nations that we'll be sharing this information with?
    Director Cardillo. The way it works is that you--that what 
you get out of the consortium depends what you put in. So if 
you invest a lot of effort, a lot of computers, a lot of 
manpower and expertise, you get to take back an equivalent 
amount. So it's really up to the nations how much they want to 
commit to contribute, and that's what they'll get back.
    Senator Coats. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Cardillo, first of all, I appreciate your comments on 
audits. I have a bipartisan bill to audit the Pentagon. I think 
that is long, long overdue. You cannot explain to taxpayers how 
it is that this is the one part of government that is 
essentially impregnable when it comes to getting an audit. So I 
think your comments on that are instructive.
    I want to turn for just a moment to this issue about 
commercial imagery. Fifty years ago, nearly all satellite 
imagery came from big, secret, expensive government satellites. 
Today it's obvious that you can save taxpayers real money by 
relying on commercially available imagery instead.
    The challenge, of course, is big institutions with a long 
history may be a challenge in getting them to adapt. In March 
2016, the NGA's advisory group stated that a culture of 
favoring the status quo--and I quote here--``undermines 
rewarding innovative solutions and the use of nontraditional 
acquisition strategies.'' Do you agree with the assessment that 
was made by that advisory group?
    Director Cardillo. I do. Would you like me to speak to what 
I'm doing about it?
    Senator Wyden. Yes. Yes, that's exactly where I'd like to 
go. A, I'm glad you agree; and obviously, the challenge of 
making your acquisition workforce more open and more inclined 
to be receptive to new innovations is exactly what I'd like you 
to talk about.
    Director Cardillo. Senator, one, I certainly understand the 
premise and the history as you described. I've lived through a 
good portion of that, as I sit in my 34th year in this intel 
community. The era of multi-year, multi-billion dollar awards 
for decades' types of service had their place and their time. 
As the commercial industry evolves--and it's evolving very 
quickly day to day--we have to become more agile or we'll not 
be able to leverage it.
    So my direction to my team is to not just engage and 
explore, but let's revisit some of the fundamental tenets of 
our acquisition strategy. We have been able to, well within the 
rules, obviously, and well within the regulations, create some 
flexible approaches.
    Let me give you one example. We're setting up now with the 
General Services Administration a contract vehicle that we 
expect to begin executing in early 2017, in which I'll be able 
to go to some of these small companies, not with a ``let me 
contract with you for the next three years with this multi-
million dollar contract vehicle,'' but ``let me swipe, 
essentially, my government credit card to do some testing and 
some evaluation, some exploration of the interfaces and the 
opportunities.'' And as those swipes turn out to show utility 
and benefit, we can then turn the dial up and say: Okay, I need 
more of that service. I may not need any more imagery, because 
that's again thinking--that's the thinking that we had in the 
prior decade. But what I will need is answers, data that I can 
put into my models and simulators, etc.
    So that's just one example where I think we will be able to 
become more agile and we will be able to take advantage of this 
growing industry.
    Senator Wyden. That certainly sounds constructive to me. I 
know a lot of colleagues are waiting to ask questions. I think 
my point really is, this is an area where, apropos of your 
language, I'd really like to see you turn the dial way up on 
innovation.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Thank you for being here and for your service to our 
country. In your statement for the record, you say that ``The 
NGA is uniquely positioned to help the U.S. Government and our 
allies understand developments in the South China Sea because 
of the interaction between physical and human geography.'' 
That's a quote. What did you mean by that? Can you elaborate a 
little bit more?
    Director Cardillo. In that case, in that condition, I think 
my responsibility is to shed light where those seek it to stay 
in the dark. What I mean by that is that there's some physical 
geography things happening. They're actually developing 
islands. They're creating land that didn't exist before.
    Then the question becomes, what's the intent behind that 
creation? There's an obvious claim that goes with those 
developments or those islands. But beyond that, the question is 
intent and use.
    So we're able to use more specific and exquisite 
capabilities to say, ah, that feature is associated with this 
mission set. One could be safety of navigation; think aircraft 
control, etc. But another, weapons handling, aviation fuel 
storage. It's those kinds of indicators that you should count 
on this agency to be able to tell you what's behind the 
development. So we take both the geography and those indicators 
to create an assessment.
    Senator Rubio. In that context, how is NGA supporting 
efforts by our government and other foreign partners to monitor 
China's--because I think we're largely talking about China 
here--their activities in the South China Sea? How is that 
interaction playing out?
    Director Cardillo. Fulsomely. What I mean by that is that 
just about--because of the advent of commercial imagery, I'm 
able to have conversations in fora like this, but also in 
instances where we have multiple countries, and we can put 
facts on the ground, so that--okay, the debate usually gets 
really interesting when you go to intent, what's the why behind 
the geography.
    We're able to put the framework on the table that says: 
Here are the facts on the ground; here's what's happened over 
time; here's who's being most aggressive or most provocative in 
the development. And then one can have a more informed debate 
about what's the purpose behind that island.
    Senator Rubio. The NGA has important foreign relationships 
from its role in the Allied System Geospatial-intelligence, or 
ASG, which brings together the U.S. and Commonwealth countries 
to advance the mission, including the U.S.-German agreement 
signed last year to share global digital elevation data. So do 
we receive now at this point, would you say we receive as much 
as we give with our foreign partners?
    Director Cardillo. No, Senator. The United States is still 
the premier provider. But I will say what this committee should 
think about when you mention those foreign partners, is think 
force multiplier, whether it's their data or ours, and when we 
have a sharing agreement it's both. But they also have analysts 
and geographers and human terrain analysts, etc. Those get 
added to our pool of expertise and create a greater effect.
    But to be very clear, the United States is still far and 
away the largest provider.
    Senator Rubio. One of the core missions of NGA is the 
provision of foundational geospatial data to the warfighter. 
Our committee hears from combatant commands and other 
warfighters that this is an area they could use some more help. 
However, you're still experiencing some gaps in global coverage 
of foundational geospatial data.
    So what steps are being taken to better avail ourselves of 
commercially available data?
    Director Cardillo. We are seeking to employ more and more 
of this. I call it the ``new space.'' These are the companies--
Digital Globe's a traditional partner; Planet, formerly 
``Planet Labs,'' is our newest partner now. Terra Bella, a 
piece of Google, we're also partnered with.
    But we're in the research, development, test, and 
evaluation phase with these new companies. We need to seek to 
understand what kinds of questions can we answer the warfighter 
with these more frequently revisiting, but lower resolution, 
types of coverage?
    Look, I think the potential is very high here. We're 
leaning in very heavily because, two things: One, the data's 
unclassified. Now, we can use it for classified purposes, but, 
boy, the fact that it starts unclassified, I can move it to 
places that before might have been difficult for me to get to 
because of the classification level.
    But, two, when I add that assessment on top of it, I think 
we're able to provide some of the insights that fill some of 
the gaps that you recognize the military still has.
    Senator Rubio. Well, just in that realm, I know we've 
spoken in the past about the University of Miami Center for 
Southeastern Tropical Advanced Remote Sensing. We know it as 
``CSTARS.''
    Director Cardillo. Indeed.
    Senator Rubio. It's a compliment for our technical means. 
It's supported Southern Command, the U.S. Navy. I'd encourage 
you and your staff to visit them in Florida to learn more about 
the types of capabilities they can provide. Have you considered 
working with CSTARS or any similar organizations to utilize the 
capabilities offered from foreign commercial satellites and the 
imagery they provide, they can provide the U.S. Government?
    Director Cardillo. The answer is yes, and just yesterday I 
received another paper from my colleagues down in Florida. 
We're digesting that paper now. It's a proposal to further our 
engagement. And, Senator, I look forward to continuing to work 
with them.
    Senator Rubio. Thank you, Mr. Chairman.
    Chairman Burr. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Great to see you again, Director Cardillo, and thank you 
for your great work. Senator Blunt and I have actually got a 
joint resolution recognizing your 20 years as an entity.
    Director Cardillo. Thank you.
    Senator Warner. I know you're going to have your 
celebration next week. Good luck on that.
    I want to build on both the comments of Senator Wyden and 
Senator Rubio. Obviously, we've got to keep our Nation's 
technical means and our exquisite capabilities above everyone 
else's ability. But I think, as you so accurately stated last 
year in one of your statements, because of the explosion 
amongst commercial activities, foreign activities, you're 
seeing the democratization--your terminology--of GEOINT.
    I hear repeatedly from combatant commanders the need for 
this unclassified imagery to be able to share with our 
partners. So oftentimes that again is going to push us toward 
more commercial. I heard what you said in response to Senator 
Wyden, which I again thought was good, with this whole notion 
of a swipe, rather than buying the whole dataset, on a rent 
rather than buy basis.
    Do you feel, though, that you've got enough flexibility in 
your acquisition activities to kind of balance off the 
challenges from your partners at NRO, who still wants to build 
hugely costly, billion-dollar exquisite systems, so that you 
can not only continue this experimentation, for example, with 
Planet, this swipe rather than buying the dataset, but also 
where you can use some of your budget to kind of promote 
innovation in the commercial sector?
    Director Cardillo. At this point, Senator, I think the 
answer is yes. I haven't yet come up against a wall that, boy, 
if only I could have this more authority or this much more room 
to explore. I think what you need to look to me to do and 
expect me to do is to continue that interaction that I 
described some here today.
    But there's more that we can and should do. So what I'm 
seeking to do--I mentioned the new GSA approach and I mentioned 
our new contract with Planet. But we're also working with 
academic institutions. We're working with CRADA's, research and 
development grants, with even more companies, because we need 
to even understand the art of the possible here. As you might 
imagine and I think you appreciate, any large bureaucracy 
that's had many years of a certain experience, it's a little 
difficult to turn it away from that, I'll call it, that comfort 
zone of the past.
    But I'm very confident that as we begin to have these small 
wins, turn into medium-sized wins, turn into answers to that 
military commander's questions, there will be a momentum that 
will build.
    Senator Warner. That's what I just want to make sure, 
because the pressure to continue within the established 
incrementalist approach, as opposed to how you make sure your 
customers have got that ability to occasionally have some risk 
capital, in effect to noodge innovation forward, I think is 
terribly important.
    I've got two other questions I want to try to make sure I 
get in. I asked you this for the record last time and you said 
there were no such plans. But I want to reiterate again: 
There's no plans to move NGA's EnhancedView contract to the 
NRO, is there?
    Director Cardillo. That's correct, there are no plans.
    Senator Warner. Well, there continues to be scuttlebutt 
around that.
    Director Cardillo. We just renewed it about two weeks ago 
for our seventh year.
    Senator Warner. We talked about this off-line. I was 
interested to see the idea that, around commercial activity, 
you, NGA and NRO, have set up this joint activity center. On 
one level I'm very excited about it. On another level, I'm: Oh 
my gosh, is this an attempt by NRO to kind of take back the 
innovation side, and is there any kind of inherent conflict as 
this activity center takes place, since NRO's primary mission 
is to make sure we maintain those National Technical Means at 
the highest, most exquisite level?
    How do you work through that conflict? How do we make sure 
that this activity center is not captured and keeps its 
forward-leaning innovation and leaning into the commercial 
sector?
    Director Cardillo. I really appreciate the question. This 
commercial GEOINT activity, as we call it, literally stands up 
this week. We notified the committee a few months ago of our 
intent to do so, but we will stand the committee up I think on 
the 30th--the activity.
    The way you should think about this, this construct, is a 
place where myself and my mission partner Betty Sapp will put 
some key individuals together to have the right conversations 
about the opportunities that are in front of both of us. I'm 
not sending any of my authorities to that activity. Neither is 
Betty Sapp. I'm sustaining my role and responsibility as the 
protector of and defender of the needs of our community.
    I certainly am protecting my analytic output and services 
responsibility, as well as Betty Sapp is doing. But what you 
should expect us to do in that is to challenge one another to 
either individually or as a team take on some of these 
opportunities that you've just described.
    So I appreciate that there's some anxiety here, but I guess 
I'd like you to turn some of that anxiety to the positive and 
challenge us to take advantage of these new space capabilities.
    Senator Warner. I want to thank you for your work, and I 
particularly want to thank the Chairman and the Ranking Member. 
I know at times I have been insistent on this subject, but I 
very much appreciate the Chair and the Vice Chair's willingness 
to kind of push this sector to take a fresh look. I think under 
Director Cardillo we're seeing real progress made, and so many 
of the members have kind of come at this question in a 
different way.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins
    Senator Collins. Thank you, Mr. Chairman.
    Director, as the Vice Chairman's question suggests, we 
along with policymakers throughout government and the rest of 
the intelligence community rely on your agency for ground 
truth, and that's why the Vice Chair brought up the issue of 
the Russians' activities and the South China Sea as well.
    I'd like to turn to Syria and try to get the ground truth 
of what's going on in Syria. It's been more than a week since a 
ceasefire was supposed to hold in Syria. Yet, according to 
press reports, the fighting in Aleppo in the last few days is 
at near highs, for a war that has already killed more than 
400,000 people and forced millions more to flee their homes.
    Does the intelligence that your agency is collecting and 
analyzing support the conclusion that the ceasefire is not 
holding and that Aleppo is under some of the most intense 
bombardment since the war began?
    Director Cardillo. Senator, if you'd allow me not to 
provide details, I can answer the question positively. Yes, the 
geospatial-intelligence that we have does support the finding 
that not only is the cessation of hostilities not holding, but 
the conflict is in fact intensifying.
    Senator Collins. Thank you. I think that is an excellent 
example of why the work that your agency does is so important.
    I want to turn to a different issue. Having previously 
served on the Homeland Security Committee as its chair and 
ranking member, as well as on the Armed Services Committee, and 
now serving on this committee, one of my top concerns has been 
the threat to our Nation's most critical systems posed by cyber 
attacks from our adversaries. Your statement for the record 
describes the critical technical support provided by the NGA to 
the global positioning system--we all call it ``GPS''--which is 
widely used in a range of both military and civilian 
applications. How secure is GPS from cyber attacks from our 
adversaries?
    Director Cardillo. First let me say, one, we don't fly GPS, 
we don't build GPS. But what we do is we provide the science 
and the math required to make sure GPS is working as it's 
intended, everything from civilian uses obviously to military 
uses. So we're a quality control factor.
    Because I don't run the architecture and because I don't 
man the system itself, I'm really not capable to answer your 
question about what the risk is, because I'm a contributor to 
that service rather than an owner of it.
    Senator Collins. Does it personally concern you?
    Director Cardillo. Anything that moves digitally concerns 
me. So yes, I have concerns.
    Senator Collins. As you know, during this week we are 
desperately trying to ensure that government keeps functioning 
and that we do not have any kind of government shutdown, which 
would represent a real failure to govern. I am hopeful that we 
can avoid that kind of outcome.
    Could you describe for the committee what a government 
shutdown--what kind of impact it would have on the NGA; and 
even a longer-term continuing resolution, why that is a 
negative for your intelligence agency?
    Director Cardillo. The impact of a shutdown is really in 
two categories. There's the mechanical impact. I have people 
working today preparing for the eventuality that we may be shut 
down. They're not doing NGA's work today; they're doing 
preparing to shut down work today. But as a government leader, 
you would expect me to be ready for that. So that's a 
distraction and it's costly.
    On the other hand, I'd like to talk about the mental 
effect. As a matter of fact, we have to begin printing letters 
that, if we're going to make Saturday in case it does shut 
down, I have to inform my teammates about their essential 
nature of their work or their non-essential nature of their 
work.
    Now, we've already done that. Unfortunately, we've had 
practice here before, so we know how to do it. But I have to 
tell you, it is not an encouraging, rewarding experience to 
have somebody hand you a letter and say, you're a non-essential 
part of my team and you may be required to stay home on 
whatever date. And I will tell you, it affects those that don't 
get those letters, because we're one team. So there's both a 
physical impact and a mental impact.
    The last question you asked, about going forward with the 
continuing resolution, quite frankly, it would inhibit some of 
the things I just heard from Senator Warner, a new start or a 
new engagement. Obviously, I could continue what I've started, 
but it inhibits me from beginning new projects, I think as you 
well know.
    Thank you.
    Senator Collins. Thank you.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you. Mr. Chair.
    Director Cardillo, as we all know, we've got a lot of 
inertia built up in this U.S. satellite acquisition strategy 
that has existed for a long time, focusing on big bucks and 
exquisite capabilities, very long time lines. I really want to 
applaud your willingness to put NGA resources into supporting 
smaller satellites, a more distributed approach, that I think 
we all believe can make our overhead architecture a lot more 
cost-effective and agile in a quickly evolving environment.
    I had a chance recently to visit Los Alamos National 
Laboratory in New Mexico, where they're doing very advanced 
research and development on cubesats, and it's my impression 
that these technologies may be game changers, both for the 
public sector and the private sector, for that matter.
    I think you said back in 2015 that we're at a bit of an 
inflection point here and you think that in the next five years 
more than a dozen constellations, hundreds of small satellites, 
will launch and continuously scan the Earth; and that NGA's 
analysis of world events is going to as a result be more 
holistic and persistent.
    Can you just tell us a little bit about, within this 
setting, the investments that NGA has made to make that real, 
in particular around evolving technologies like cubesats and 
other small, responsive satellite approaches?
    Director Cardillo. I'd be happy to, Senator. We recently 
engaged a contract with a company that used to be called 
``Planet Labs.'' They're now called ``Planet.'' This is 
allowing us access to their datasets. Now, they have dozens of 
very small satellites up in space now that are scanning the 
globe. They're employing more and more over time.
    But for the time period of the contract, that will give us 
access to that dataset to do a number of things. We can do some 
test and evaluation just on some interfaces. We can accept the 
data, use it in our library. More importantly, what I'm excited 
about is beginning to apply algorithms and models against that 
dataset to find out, not just what you can image, but what can 
you sense.
    Again, I'm a creature of this profession, so I've been 
staring at imagery for a long time as an analyst. Sometimes 
that frame of imagery can be a prison. It locks you into 
whatever you see within that image. What I'm excited about this 
new venture with Planet is it's going to give us the 
opportunity to get beyond the frame, get to activity, get to 
change. Think of a service that we could subscribe, rather than 
a pixel flow.
    That's just one example. We're pleased to be partnered with 
Terra Bella, which is a subsidiary of Google; of BlackSky 
Global, another new company. We have a CRADA with a company 
called Earthcast, and others.
    Of course, I don't want to leave out my most long-term 
customer, Digital Globe, which is flying, yes, large 
satellites, but they, too, are moving to smaller architectures, 
because that's where the market's going and as a commercial 
company they want to be viable in the future. Digital Globe's 
also moving to services as well and I want to be a beneficiary 
of their move to algorithms and models, etc.
    So I think, even though it was only a year ago, I think the 
statement's holding up and I think we're seeing that reality 
come into play.
    Senator Heinrich. Yes, it feels like we're moving from a 
focus on data points to a focus on trends that tell us what is 
happening, and I think that's a very important distinction.
    Also last year, in 2015 in August, NGA launched the GEOINT 
Pathfinder Project. I was hoping that you could--a project that 
was to explore techniques to answer key research questions 
using only unclassified tools and data and social media. Can 
you give us just a little bit of an update on how this project 
has fared and where you see it going in the future?
    Director Cardillo. We're finishing up what we call our 
second sprint. We call it Pathfinder 2. The first one was 90 
days. This one was 150 days, and we're literally wrapping up 
our lessons learned now. And by the way, we will provide those 
to the committee as soon as they're available.
    Let me just describe my last visit to my Pathfinder team. 
Just to recall Pathfinder 1, it was so difficult for us to set 
up this WiFi, world wide web, commercially available facility 
in our building. We had to move outside. We were literally a 
couple miles away. Now, as you come into my front door, into 
our very nice facility in Springfield, Virginia, you turn 
immediately to your left and you'll find my Pathfinder 2 lab. 
So it's not exactly in the building--I mean, not in the center 
of the building, but it's on the campus, so that's an 
improvement.
    I went to visit them the other day to see how things were 
going. Their real emphasis this sprint was about how do we 
employ updates to our customers in between our classified 
briefings. We see them at 10:00 o'clock when they can come into 
our secure facility. We might send them a classified report 
late in the afternoon. But the world is going on all day long. 
So they call it our ``coffee strategy''; how do you keep them 
informed in the appropriate way?
    So we've been moving to mobile. These are smartphone and 
tablet developments. As I was getting an update on the coffee 
strategy, across the table there was a young man on a computer 
coding, building the app that I was using. And they introduced 
him to me, and I shook his hand. They said: By the way, he's an 
intern.
    I said: Oh, that's wonderful, because we're very proud of 
our interns. And he said: But he's not from college; he's from 
Thomas Jefferson High School. I went: Oh my goodness; how old 
are you?
    Now, by the way, we're following all rules. There's no 
child labor violations, etc. But it was just so exciting. I 
said: You are our future; frankly, you're living the world that 
we're talking about.
    So I was thrilled that--and by the way, they didn't come 
ask me, can we use an intern from a high school? Again, we 
followed all the rules. But what I want to let the committee 
know is that I've truly given them a lot of room to explore, 
and I'm very excited about what they're finding out.
    Senator Heinrich. Fantastic. Thank you very much.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Chairman. And, Chairman, thank 
you again for the time you spent talking to the NGA team at the 
St. Louis facility. That facility's been there in one form or 
another for about 70 years, but only 20 years ago did it 
transition from oceanographic mapping and other things it had 
been doing for a long time to the geospatial assignment when 
Geospatial was formed officially.
    Senator Warner mentioned that he and I and Senator 
McCaskill and the Chairman and Vice Chairman joined us in a 
resolution recognizing that 20 years of service. I want to talk 
a little bit about--and why Warner and Blunt on this committee, 
Virginia and Missouri.
    I want to talk a little about how those facilities work 
together, the significant number of people working at 
Springfield, Virginia, but the Missouri facility, the St. Louis 
facility, NGA West--I think back in the winter you and I were 
talking at one after there was a government shutdown here 
because of weather, not budgeting, and what happened when 
people didn't come to the Springfield facility, Springfield, 
Virginia, facility? Where was that work done and how's that 
plan working for two facilities that are mutually supporting?
    Director Cardillo. It's a great question. Let me just set 
the context before I get to the specifics. In 1996 when the 
agency stood up, that was the Defense Mapping Agency or a key 
component of it on September 30th, 1996. On 1 October it became 
part of the National Imagery & Mapping Agency.
    But, as Director Clapper found out when he joined us in 
2001, that ampersand between ``Imagery'' and ``Mapping'' was 
really keeping us apart. So in those days mapping happened out 
West, imagery happened in the East, and we were really not one 
agency.
    But over the past 15 years, Senator, we've moved mission, 
we've moved expertise, we've moved capability. So think of our 
IT architecture and our operational flow. It is now one agency.
    So to your point about when we had the weather incident 
here and people had great difficulty getting to our 
headquarters, it was just a flip and we just said: Okay, 7 by 
24 operations--which, by the way, support transportation, so 
safety of navigation; they support targeting, so when the Air 
Force needs help on putting a weapon on a precise point; or 
when they need intelligence analysis--that all went to the West 
and seamlessly was picked up. So it was a great example of how 
we've become one agency and how interdependent we are.
    Senator Blunt. And the idea is that one agency fully backs 
up the other one if anything happens--a power outage, a weather 
event, or anything else?
    Director Cardillo. And it works the other way. When we had 
the recent flooding in St. Louis, some of our teammates had 
difficulty getting to work as well, we were able to back them 
up. So it's a wonderful setup.
    And by the way, it's a significant investment. About a 
third of my workforce is there. This isn't just a few hundred 
people. It's 3,500 government employees between our campus 
downtown and our campus in Arnold, Missouri.
    Senator Blunt. And you're hoping to see that new facility 
started, planning-wise at least, in the next fiscal year; is 
that right?
    Director Cardillo. Well, we're heavily planning now. We 
obviously need some help from the Congress in fiscal year 2017 
to authorize and appropriate the military construction dollars 
that would effect the property change, so that we with the Air 
Force could acquire the property. That would allow us to break 
ground in 2018, really build 2019, 2020, 2021, and move in in 
2022, maybe early 2023.
    Senator Blunt. Another thing I want to talk about while 
I've got another minute here is, in terms of workforce 
preparation and attracting a new workforce, what are some of 
your strategies there as you're working with colleges, 
universities, Silicon Valley, training, in St. Louis and here?
    Director Cardillo. I just briefly mentioned our intern 
program. We were able to bring on board about 200 college 
interns last summer, both in the East and the West. We end up 
offering about 80 percent of those interns full-time employment 
at the end. The even better news is 90 percent of those 80 
percent accept our offer. So it's a great entry point.
    I'd also say, though, that, while that's a great stream for 
talent--obviously, young and highly educated--but as a combat 
support agency, too, I recruit strongly from those that are 
separating from the military. We have a Wounded Warrior 
Program. We take on discontinued vets, because--for two 
reasons. One, it's the right thing to do; but two, that 
experience is an immediate benefit to my workforce, because 
right now, because of the way that the Defense Department can 
support me with uniformed officers, I'm only about 5 percent 
military today. So I have to get that experience another way.
    Then finally, these private partnerships. You don't have to 
be an NGA employee for me to benefit. We could have an academic 
relationship, we could have a contractual relationship, or a 
think tank. So we're looking at those different ways to get 
access to talent without having to become a Federal employee.
    Senator Blunt. Thank you, Chairman.
    Chairman Burr. Thank you, Senator Blunt.
    Before I go to Senator King: Director, let me just say this 
to you. I've said this to you privately and publicly. I think 
our expectations need to be to finish this facility faster than 
2022. Challenge us as a Congress to come up with the money, 
continual funding, so that we can do this like the private 
sector would build a facility.
    It's hard for me to believe that an agency that understands 
the transition we've got to make wouldn't push us to show that 
that agency can meet their facilitation needs in the same short 
term of many of the things that you're helping to design and 
express your needs. I ask you for that.
    Senator King.
    Senator King. Mr. Chairman, since this is probably our last 
open hearing of this year--and, Director Cardillo, you 
mentioned Jim Clapper. I just want to publicly acknowledge a 
career that has spanned more than 50 years, extraordinary 
vision, capability, competence, and will be coming to a close 
probably in January. I just want to acknowledge what I think 
has been absolutely one of the most outstanding records of 
service to this country, not very widely known. But people 
should know what he has done. So I just wanted to make that 
comment.
    You're a data business in many ways. Silicon Valley, the 
commercial side, is using all kinds of crowdsource data. I have 
an app on my phone called ``Waze'' that sees where cars are. I 
use it principally to see if my brother-in-law is headed for my 
house. But it has--the point is there's an enormous amount of 
data coming from all over the place.
    Are you making--are you utilizing this, this source of 
data? For example, I think there's a program called ``NOAM'' 
where you're getting data from troops abroad. Is this something 
you're looking at?
    Director Cardillo. It is indeed. We're the government, so 
we created an acronym. We call it ``VGI''; it's ``Voluntary 
Geographic Information.'' GNOME is one example. Most people 
know about Wikipedia. There's a map equivalent of that. One of 
the best known is called ``Open Street Map.'' It's a reflection 
of the reality of our life that every one of us, just about 
every one of us, now is a sensor.
    Now, we use our sensors for different reasons and purposes, 
but I think I would be derelict in my duty if I were not 
appropriately--key word, ``appropriately''--leveraging the 
potential from that kind of contribution.
    Senator King. So this is a conscious strategy to take 
advantage of this enormous amount of data that's out there?
    Director Cardillo. Right, a strategy, but, Senator, it's a 
recognition of the reality. Now what we're doing, again, is 
appropriately working what's the left and right bounds of how 
you use that, where it is appropriate, and how to stay within 
those bounds as we do so.
    Senator King. I also just want to note, you gave out this 
excellent presentation on the Arctic as an example of the work 
you do. Interestingly, you have the progression of the 
diminution of Arctic ice. It goes from 2010 to a projection in 
2030 of 4.5 million square kilometers. Actually, in 2015 it was 
4.4. This year, two weeks ago 4.1, and it's accelerating. I 
just think it's interesting we're already well below your 
projection or the projection for 2030. Now, you know, obviously 
one or two years is not a trend, but I was in Greenland 
recently and everybody up there is seeing an acceleration of 
this trend over historic averages.
    In any case, let's get back to satellites. To follow up on 
Senator Warner's question, can we look to a future architecture 
where we're talking about many, many smaller satellites than 
the large, big ticket, more vulnerable satellites?
    Director Cardillo. Well, my answer is yes. I don't even say 
that that's future. I mean, presently yes, I have access to 
many large satellites that my mission partner provides me, but 
almost every day we're gaining access to more and more medium 
and small-sats.
    Senator King. How much input do you have to NRO about what 
is going to go up in the air?
    Director Cardillo. I have total input. By that I mean it's 
my responsibility to access, document, and represent the needs 
of those that I serve. That needs statement drives everything 
that we purchase. So that's what I mean--when I say total, I 
mean----
    Senator King. So you're the principal customer or certainly 
one of the principal customers?
    Director Cardillo. I represent the customers, you know what 
I mean? I speak with the commands and the services and the 
agencies and the departments to make sure: What is it that you 
need from Geospatial-Intelligence to do your job? And then we 
capture those and we represent those.
    That then becomes the target against which any architecture 
or any satellite is judged.
    Senator King. A yes or no question: Does NRO listen to you?
    Director Cardillo. Yes.
    Senator King. Good.
    Final question, quick one: On the NGA West facility, almost 
a $2 billion facility, are you going to invite other 
intelligence community members to utilize that facility? I hope 
that that could be a central intelligence----
    Director Cardillo. The answer is yes. To date the most 
interest that we have is from the FBI. So they're looking now 
at an opportunity to be collocated with us.
    Senator King. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you.
    Thanks for the conversation and for bringing all that 
you're bringing. It's quite a bit of change that's happening 
right now and we appreciate all the engagement on this.
    Talk to me a little bit about price tag? Obviously, nothing 
in government ever gets less expensive. But using the 
commercial imagery that you're using and some of the available 
resources, as the shift occurs on that does that allow 
investment in other areas and where does that investment go if 
so?
    Director Cardillo. It does. I think a great example is the 
contract that we've had with Digital Globe. We just entered our 
seventh year. It's a year to year contract of 10. That price 
point over time, what the U.S. taxpayer gets back on the return 
on our investment, even if you think of per square kilometer of 
Earth surface, continues to go down. It's a great value.
    But, as proud as we are of those results, we negotiated 
that eight years ago. Boy, today our conversations with these 
new space providers, there's very little about square 
kilometers. It's more about datasets and algorithms and what 
kind of filter can I put on that stream to understand what's 
happening.
    Earlier I explained that we're setting up a GSA-like model 
so that we can pay by the--think of a credit card--swipe, 
versus a long-term contract. I think all of that will add to us 
getting more efficient and create smaller--less price points 
over time.
    Senator Lankford. You're using a lot of social media now to 
try to use--basically, creating the algorithms to anticipate 
hostile actions and such. What you're doing in that work, how 
is that different than some other agencies are using social 
media to do some anticipatory work as well.
    Director Cardillo. It's a great question, and it's one that 
we work on all the time, because there's a crossover.
    Senator Lankford. Right. The issue is overlap and lanes.
    Director Cardillo. Absolutely. My answer to that is to do 
it openly, and when I say ``openly,'' not on the world wide web 
necessarily, but so that if I'm exploring a social media stream 
in eastern Ukraine because we're trying to find out what's 
really going on inside that opposition-held territory, I'm 
going to do that with the Defense Intelligence Agency, with the 
Central Intelligence Agency, with the Army, to make sure that 
we're not all doing the same thing at the same time.
    I won't kid you, though. This is an evolving tradecraft and 
under this tradecraft John Brennan has the--he has the 
community responsibility. I just went to one of his board of 
governors meetings to make sure we are in fact sharing, so that 
we're not inefficiently or redundantly applying our assets.
    Senator Lankford. But right now that's the spot that's 
actually the traffic cop basically to make sure that we're not 
overlapping on it, or if at times we're overlapping it's with 
purpose?
    Director Cardillo. That's correct, we're doing it 
knowingly. ``Transparently'' is the way I like to phrase it.
    Senator Lankford. Give me some ideas, just as we're dealing 
with personnel issues and investment and hardware. You have a 
lot in your opening statement just about using different 
algorithms and computer-generated analysis of looking at images 
to be able to help track there. That's extremely helpful with 
the amount of data that's coming in.
    Give me a good comparison on machines versus people in this 
process and what people are picking machines aren't or machines 
are and people can't?
    Director Cardillo. I am disappointed today in whatever the 
percentage I would give you on the machine side. It needs to be 
more. Some of this is technology, some of this is the actual 
science of that. I think a broader inhibitor to my team today 
is mind set. We're quite comfortable with that human path. We 
all know it, we've lived it, we've learned it, etcetera. 
Turning over, if you will, to an algorithm gets us a little 
anxious.
    So part of my mantra has been to establish pilots and test 
beds so that we can some, obviously, technical experience, but 
also that cultural experience that I like to build. We just 
recently--I just recently got a briefing. It was classified, so 
I won't go into details. But it resulted in my analysts 
spending time counting buildings in a town physically. How many 
buildings? 25,000. I said: Please tell me you didn't count 
those on your own. Oh, sir, I did. And he was very proud of his 
work.
    But think of the hours he had to spend to do that. Now, I 
turned to my head of research and I said: Don't let that happen 
again. You know what I mean? I want to move that number up 
quickly and we're on a number of paths to do that.
    Senator Lankford. Last question. All the work that's 
happening right now on Iran is extremely important to all of 
us, and compliance with the nuclear agreement the President 
made. How confident are you that we're able to see into the 
places we need to see to be able to evaluate their movement and 
clandestine operations?
    Director Cardillo. I'm the geospatial component of that 
team that adds up to the confidence you asked. From my seat, 
I'm very confident that we have the access and that we have the 
tradecraft to expose activities that could be an indicator that 
are in variance with the agreement.
    Senator Lankford. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Lankford.
    I want to follow up with what Senator King said, Director, 
just very briefly, and that's about Jim Clapper. Jim brought to 
the DNI an incredible amount of experience throughout the 
community--a very difficult thing for us to replicate when Jim 
leaves. But it has served this country well and I think it has 
brought some confidence to each of the agencies knowing that 
there was an individual that not only tasked them, but 
understood the challenges that they were up against.
    Jim's had a wonderful career that will end at the end of 
this year and a richly deserved retirement. The next choice 
will be extremely tough, to find somebody with the talents and 
the experience that he had.
    I want to commend the members. It's not always easy to go 
into an open hearing and mistakenly not cross the line. Some of 
you got right up close to it and I thought I was going to come 
out of my seat. But you didn't cross the line and I am grateful 
to you for that, because I see value to these hearings being 
open.
    I inherently believe that the public wants to know what 
oversight looks like. They want to know how and why the IC 
community does what they do and, as much as they can, how it's 
done and, more importantly, why it's important to them. I think 
this hearing covered it.
    I might say, it was a little dry. But when you've got to do 
it in open session it's that way. Perhaps, since both of us 
know about oversight, it's not too exciting. I think today we 
did cover the nuts and the bolts, but I think only the agencies 
that we have jurisdiction over understand that from the 
standpoint of this committee we're an extension of the IC 
community. We ask the tough questions, we ask them when it's 
appropriate to do, and we work to find a solution if there's a 
problem. We don't just leave them out hanging. I hope, 
Director, you feel the same way I do: We're partners in this.
    The last thing I want to say is to you. I thought your 
testimony was great. I think that your written testimony is 
incredibly thorough, and for anyone who would take the time to 
sit down and read it I think they would be impressed at the 
fact that we've got you as the Director of the NGO.
    So we are grateful to you. We are grateful to the employees 
that 24-7 do an unbelievable job of really leveraging the 
technologies that are available to us and in a lot of cases 
pushing what's possible to become reality and give us the edge 
in a very unstable and dangerous world. For that we're 
grateful.
    This hearing is adjourned.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]
  

                                  [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
